OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/KENYA’S
EFFORTS TO MITIGATE
ENVIRONMENTAL IMPACT IN
ITS PROJECT PORTFOLIO
AUDIT REPORT NO. 4-615-10-008-P
September 29, 2010




PRETORIA, SOUTH AFRICA
Office of Inspector General


September 29, 2010

MEMORANDUM

TO:                  USAID/Kenya, Mission Director, Erna Kerst

FROM:                Regional Inspector General/Pretoria, Christine M. Byrne, CPA /s/

SUBJECT:             Audit of USAID/Kenya’s Efforts to Mitigate Environmental Impact in Its Project
                     Portfolio (Report No. 4-615-10-008-P)

This memorandum transmits our report on the subject audit. The report includes 13
recommendations to strengthen USAID/Kenya’s efforts to mitigate environmental impact. In
finalizing the report, we carefully considered your comments on the draft report and have
included those comments (without attachments) in Appendix II.

The Regional Inspector General has reviewed the mission’s comments and supporting
documentation and determined that management decisions have been reached on all
recommendations except Recommendation 8, and that final action has been taken on
Recommendation 10. Please provide the Audit Performance and Compliance Division in the
USAID Office of the Chief Financial Officer (M/CFO/APC) with the necessary documentation to
achieve final action on Recommendations 1–7, 9, 11, 12, and 13.

Recommendation 8 remains without a management decision because the mission’s comments
did not address the incorporation of environmental expertise into the selection criteria for future
awards. We ask that you notify us within 30 days of any additional actions planned to
implement Recommendation 8.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www..usaid..gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1
Audit Findings ................................................................................................................. 4

          Responsibilities Not Clearly Defined
          for Disposing of Health-Care Waste...................................................................... 5

          Water Testing Not Being Performed ..................................................................... 7

          Environmental Responsibilities
          Not Given High Priority........................................................................................ 10

          Environmental Guidance
          Not Implemented Adequately .............................................................................. 12
Evaluation of Management Comments ....................................................................... 18

Appendix I – Scope and Methodology ....................................................................... 21

Appendix II – Management Comments ....................................................................... 23
Appendix III – Funding Levels for Programs Reviewed ............................................ 30

Appendix IV– Selected Water Quality Test Results From a
             USAID-Sponsored Shallow Well .......................................................... 31

Appendix V – Summary of USAID/Kenya’s Environmental Staffing and
             Procedures............................................................................................. 32
SUMMARY OF RESULTS
Damage to the environment stemming from economic development is a fundamental
concern in the developing world. To guarantee adequate environmental oversight and
ensure that environmental considerations are integrated into the decision-making
process for all USAID-funded projects, programs, and activities, USAID implements
Title 22 of the Code of Federal Regulations, Part 216—Environmental Procedures (22
CFR 216).

The Code of Federal Regulations (22 CFR 216) assigns USAID responsibility for assessing
the foreseeable environmental impacts of the Agency’s actions, requires that environmental
safeguards be incorporated into program planning and design, and directs that programs
be continually monitored and modified when necessary to mitigate environmental impact.
The CFR states that it is USAID policy to assist host countries with strengthening their
capability to evaluate potential environmental effects of proposed projects, and to develop
effective environmental programs. USAID’s Automated Directives System (ADS) 204,
“Environmental Procedures,” provides policy directives and required procedures on how to
apply 22 CFR 216. If properly implemented throughout the project cycle, 22 CFR 216 will
result in the promotion of environmental policies consistent with USAID’s development
mandate and environmentally sound activities.

The Regional Inspector General/Pretoria conducted this audit at USAID/Kenya as part of
a worldwide series of audits to evaluate the implementation of the above environmental
regulation. U.S. assistance to Kenya promotes peace and manages conflict; stimulates
economic growth; and supports improvements in governance, health, education, and
environmental management. In these program areas, USAID/Kenya funds activities with
varying potential environmental impact. The primary scope of the audit included activities
involving HIV/AIDS, water sources, maize production, dairy operations, and a variety of
activities under small grants.

The objective of the audit was to determine whether USAID/Kenya was achieving its
goal of mitigating environmental impact in its project portfolio. As shown in Appendix III,
the audit focused primarily on five USAID/Kenya programs implemented between 2008
and 2010. A sixth program in the malaria sector was also reviewed, but because the
program had just been reawarded following a competitive bidding process, no site visits
were conducted. The total amounts awarded and obligated for these six programs were
approximately $104,162,369 and $69,512,563, respectively, as of March 31, 2010. 1
(See Appendix III.)

Although the audit disclosed that some USAID/Kenya-sponsored shallow well projects
were providing water of unknown quality to intended beneficiaries (page 7),
USAID/Kenya was generally achieving its goal to mitigate environmental impact in its
project portfolio. However, the lack of adverse impact was not always a direct result of
the mission’s properly implementing Agency environmental requirements, clearly
communicating these requirements to implementing partners, or actively monitoring
activities.


1
    Dollar amounts referenced in this report were not audited.


                                                                                         1
Source: U.S. Department of State

Instead, environmentally sound design and management of USAID/Kenya’s activities,
adherence to the Government of Kenya’s environmental regulations and requirements,
and implementing partners’ awareness of good environmental practices all mitigated
impact (pages 3 and 4).

Despite generally achieving its goal of mitigating environmental impact, the mission
should address the following problem areas to strengthen its program:

•   Responsibilities were not clearly defined for disposing of health-care waste (page 5).

•   Water testing was not being performed (page 7).

•   Environmental responsibilities were not given high priority (page 10).

•   Environmental guidance was not being implemented adequately (page 12).

This report makes 13 recommendations to address these issues, including:

•   Determining the extent of USAID’s environmental responsibilities for disposing of
    health-care waste generated by service providers’ activities and developing a plan to
    carry out those responsibilities (page 7).

•   Conducting water tests and establishing a plan to ensure future water testing (page
    10).

•   Developing a mission order to delineate responsibilities for environmental
    compliance (page 11).



                                                                                         2
•   Providing adequate resources and environmental training to appropriate staff and
    implementing partners (pages 11 and 12).

•   Establishing a plan to ensure that environmental assessment and expertise
    requirements are incorporated into solicitations and signed awards (page 13).

•   Establishing a plan to ensure that environmental documentation is completed and
    maintained (page 15).

•   Establishing procedures to ensure that required environmental oversight is being
    performed during site visits (page 16).

•   Notifying mission personnel and implementing partners about the Agency’s free
    resources to aid environmental monitoring (page 17).

Appendix I contains a discussion of the audit’s scope and methodology, and Appendix II
presents USAID/Kenya’s comments (without attachments).

In response to the draft report, USAID/Kenya agreed with all 13 recommendations and
provided supporting documentation for actions taken and target dates for actions to be
taken. The Regional Inspector General has reviewed the mission’s comments and
supporting documentation and determined that management decisions have been
reached on all recommendations except Recommendation 8, and that final action has
been taken on Recommendation 10.




                                                                                    3
AUDIT FINDINGS
Environmentally sound design and management of USAID activities are essential to
successful development outcomes. The six programs reviewed for this audit
demonstrated to some extent environmentally sound design and management.
Furthermore, training activities for beneficiaries in each of the six programs included at
least a minor environmental component. Examples are listed below.

•   Kenya Maize Development Program, implemented by ACDI/VOCA. One element
    of this program is the dissemination of new and improved technologies and
    information emphasizing agricultural sustainability to farmers. Farmer training in best
    practices resulted in (1) greater outputs for the same or smaller amounts of inputs,
    (2) efficient and correct application and handling of fertilizer, top dressing, and
    pesticides, and (3) improved soil management and planting techniques. The
    program also encouraged participants to plant trees and protect river banks.

•   Kenyan Civil Society Strengthening Program, implemented by Pact. The
    natural resources management component of this program aimed to help
    communities generate income in an environmentally sustainable way. For example,
    one project to develop ecotourism helped communities realize and appreciate long-
    lasting benefits from the area’s natural resources. To encourage ecotourism, one
    community began planting trees and allowing indigenous vegetation to regrow in
    areas that had been cleared for farming.

•   Kenya Water and Sanitation Program in Narok and Lamu Districts,
    implemented by World Concern. To bring improved water and sanitation to
    underserved communities, this program trained communities in these two districts in
    water conservation, hygiene, and water source protection, and established
    community water groups to encourage local involvement in water projects.
    Additionally, the program helped these communities construct shallow wells and
    pumps from locally available materials to promote long-term sustainability.

•   Kenya Dairy Sector Competitiveness Program, implemented by Land O’Lakes.
    USAID/Kenya’s interventions in the dairy sector helped smallholder farmers improve
    their practices to increase household income from the sale of quality milk. Many of
    these improvements have lessened the smallholders' impact on the environment.
    Some examples include development of biogas as an alternative source of fuel,
    improved and reduced use of pesticides, and production of renewable feed for
    livestock. Furthermore, the dairy processors supported through this program and
    selected for auditor site visits received certification from the Kenya National
    Environmental Management Authority for complying with Kenya’s environmental
    regulations.

•   USAID-AMPATH (Academic Model Providing Access to Healthcare)
    Partnership, implemented by Indiana University. Training provided though
    AMPATH for health-care workers in patient-initiated treatment centers included a unit
    on biosafety. Additionally, AMPATH’s Imani Workshop, a livelihood development
    project for people living with HIV/AIDS, used materials recycled from the main
    hospital for income-generating activities. Paper waste from the AMPATH training


                                                                                         4
    center was recycled into journals, beads, and decorative bowls, and vegetable oil
    cans from AMPATH’s food distribution center were turned into small, energy-efficient
    stoves called jikos.

•   Indoor Residual Spraying Program, implemented by RTI International. Staff
    carried out several levels of environmental review, including environmental audits, for
    this malaria program, and the implementing partner hired a full-time environmental
    compliance manager. Environmental monitors in every targeted community were
    trained to perform daily monitoring of spraying activities.          Additionally, the
    implementing partner stated that project staff members conduct interviews with
    communities following spraying to identify any adverse effects of the project.

The audit found no evidence of adverse impact to the environment resulting from
USAID/Kenya’s activities, and in some cases found that USAID/Kenya’s activities had
benefited the environment. Still, the mission can further strengthen its program and
reduce the risk of potential environmental impact by addressing the following problem
areas.

Responsibilities Not Clearly Defined
for Disposing of Health-Care Waste
Through the USAID/AMPATH 2 Partnership, USAID/Kenya provides medical staff, drugs,
and other medical supplies to private and government health clinics and hospitals for the
testing and treatment of HIV/AIDS. In turn, USAID/Kenya relies on the health-care
facilities for disposal of all waste, including general, hazardous, and highly infectious
medical waste. Auditors observed some positive health-care waste management
practices, such as separation of general and hazardous waste and disposal of syringes
in special containers, during visits to 5 of the 23 rural and urban sites where AMPATH
provides services.

However, site visits to these locations also raised several concerns. At one facility run
by the Government of Kenya, the audit team observed an individual scavenging through
a pile of waste, including medical waste that had been dumped on hospital property
behind a nonfunctioning incinerator. At the same site, the audit team found evidence of
medical waste comingled with general waste in an open burn area. At another facility,
the audit team observed an unprotected, unlined pit being used for disposal of infectious
and potentially hazardous waste. Several bags of such waste, including blood-
contaminated waste—part of which was identified as possibly coming from USAID-
funded activities—were scattered around the opening of the pit, unprotected against
scavengers, animals, and other disease carriers. (See photo on page 6.)

The Code of Federal Regulations 3 states, “It is USAID policy to ensure that the
environmental consequences of USAID-financed activities are identified and considered
by USAID and the host country prior to a final decision to proceed and that appropriate
environmental safeguards are adopted.” The regulation further states that USAID policy
is to “assist developing countries to strengthen their capabilities to appreciate and

2
  AMPATH is a model of HIV/AIDS control in western Kenya. It grew out of a long-standing
partnership between Indiana University, Moi University, and Moi Teaching and Referral Hospital.
3
  22 CFR 216.1(b)(1), 22 CFR 216.1(b)(2), 22 CFR 216.2(a).


                                                                                             5
effectively evaluate the potential environmental effects of proposed development
strategies and projects, and to select, implement, and manage effective environmental
programs.” With the exception of certain classes of projects, programs, and activities
enumerated in 22 CFR 216.2(b), these policies apply to all new projects, programs, or
activities authorized or approved by USAID.

The initial environmental examination 4 that USAID/Kenya prepared for its strategic
objective addressing HIV/AIDS is consistent with 22 CFR 216. The examination
requires mission implementing partners 5 to hold their subpartners 6 responsible for
complying with the initial environmental examination by including compliance provisions
in all subagreements. The initial environmental examination also stipulates conditions
that implementers must meet before starting activities that involve the generation,
storage, handling, and disposal of medical waste.




        Bags of blood-contaminated and potentially infectious waste lie in and
        around an unprotected and unlined pit at a service provider’s site near
        Eldoret. (Photo by RIG/Pretoria, March 2010)

However, mission staff were unsure about the extent to which initial environmental
examination conditions and relevant environmental standards applied to service
providers, which are independent organizations that have funding sources other than
USAID and serve patients other than those funded by USAID.            As a result,


4
  An initial environmental examination is the first review of the reasonable foreseeable effects of a
proposed action on the environment. See Appendix V for additional information.
5
  Implementing partners are organizations that have signed agreements with the mission to
implement its programs and that receive funding directly from the mission.
6
   Subpartners sign agreements known as subagreements with implementing partners to
implement aspects of the mission’s programs. Subpartners receive funding indirectly from the
mission through implementing partners.


                                                                                                   6
subagreements 7 with the service providers operating health facilities did not assign
responsibility or define requirements for appropriate disposal of health-care waste.
Since many of the facilities where the HIV/AIDS programs operate belong to the
Government of Kenya, some mission personnel felt that it was the Government’s
responsibility to enforce compliance with its own national environmental regulations for
health-care waste disposal.

As a result of the poor compliance of some USAID-assisted HIV/AIDS service providers
with accepted standards for disposing of health-care waste, USAID/Kenya’s HIV/AIDS
program is contributing to heightened risk of damage to the environment and to the
health of surrounding communities. The program is also vulnerable to any negative
publicity 8 that might result from the improper disposal of hazardous medical waste.

Although a significant budget of $2.1 billion was approved for USAID’s HIV/AIDS
activities worldwide in fiscal year 2009 ($334.2 million approved for Kenya), the mission
was not aware of any specific policies or procedures issued by USAID for the disposal of
health-care waste resulting from HIV/AIDS interventions. Since there is a gap in USAID
guidance concerning the disposal of HIV/AIDS-related health waste, the mission needs
to consult with USAID/Washington to determine the proper application of current
environmental policies and procedures to the HIV/AIDS program in Kenya. For this
reason the audit makes the following recommendations.

        Recommendation 1. We recommend that USAID/Kenya determine the
        extent of its responsibilities for health-care waste generated by its
        HIV/AIDS service providers.

        Recommendation 2. We recommend that USAID/Kenya develop a plan
        with milestones to implement its responsibilities for health-care waste
        generated by its HIV/AIDS service providers, including the revision of all
        relevant program documents and agreements.

Water Testing Not
Being Performed
USAID/Kenya’s water and sanitation program in Narok and Lamu aims to increase
access to, and improve the quality of, potable water for human and livestock
consumption, while increasing community capacity to manage and maintain those water
resources. To date, USAID/Kenya, through its implementing partner, World Concern,
has constructed several shallow wells and water catchment systems 9 for human
consumption, as well as a water pan for livestock. Regarding such water and sanitation

7
  The typical subagreement used between AMPATH and its service providers was in the form of a
memorandum of understanding.
8
  On March 26, 2009, an article by the Associated Press surfaced a complaint that plastic fishing
nets purchased as part of a USAID/Kenya livelihood project were destroying Kenya’s coastal
ecosystem. This article ran in major news media, including USA Today and MSNBC.
USAID/Kenya holds that there is no clear indication that USAID-provided nets caused harm or
detriment, and that the nets funded by USAID represent a very small fraction of all the nets being
used along Kenya’s 600 kilometers of coastline. Although this article did not refer to medical
waste disposal, it exemplifies how USAID is vulnerable to negative publicity.
9
  A water catchment system is a structure used to gather and store rainwater.


                                                                                                7
projects, USAID/Kenya’s initial environmental examination states that water quality
testing is essential both to determine whether the water from a constructed water source
is safe to drink and to establish a baseline so that any future degradation can be
detected. The document goes on to state that among the water quality tests that must
be performed are tests for the presence of arsenic.

Also relevant to water projects is a December 2003 document issued by USAID’s
Bureau for Africa. “Guidelines for Determining the Arsenic Content of Ground Water in
USAID-Sponsored Well Programs in Sub-Saharan Africa” states that assistance
objective teams must ensure that the standards and testing procedures described in the
document are followed for activities affecting the supply of potable water. Agreement
and contracting officer’s technical representatives (technical representatives) and activity
managers are responsible for ensuring that initial water quality testing is carried out.
They are also responsible, when feasible, for ensuring that capacities and plans have
been developed to provide reasonable assurance that ongoing monitoring of water
quality occurs.

Earlier USAID guidance 10 on water testing requires that any environmental assessment
carried out in accordance with 22 CFR 216 on projects involving potable water supplies
include testing for arsenic, in addition to the usual testing for coliform bacteria 11 and
nitrate. Prior to public provision, all USAID-funded water supplies should be tested for
arsenic and fecal coliforms 12 at a minimum—and ideally also for lead, copper, nitrate,
nitrite, and fluoride.

USAID/Kenya’s agreement with World Concern stated that water from any new source
that World Concern developed would be tested to ensure its fitness for human
consumption. However, testing was not always done. For example, World Concern
stated that it had not conducted water testing at all sites in Narok (photo on page 9) and
Lamu, and had not tested for arsenic at any sites. Neither World Concern nor the
agreement officer’s technical representative, who stated that he had not received any
specific training on the subject, was certain of the exact requirements for water testing.
A World Concern representative stated that he had received no specific instructions from
the mission concerning water testing. As a result of their unfamiliarity with water testing
requirements and staffing and time constraints, mission officials did not conduct site
visits or require documentation to confirm that necessary testing had been completed
before beneficiaries used the water.

Because neither USAID/Kenya nor World Concern regularly tested water sources, the
audit team requested that water tests be conducted during audit site visits. A pH test
conducted in the field during one site visit revealed a pH level higher than 10. This
reading was a concern because World Health Organization standards indicate that a pH
level above 9.2 would markedly impair water potability (pure, neutral water has a pH of
7, whereas ammonia has a pH of 11). A water sample from the same source was sent

10
   USAID Cable 051298, May 12, 1998.
11
   According to the Environmental Protection Agency, coliform bacteria are a group of closely
related bacteria that are (with few exceptions) not harmful to humans. They are natural and
common inhabitants of the soil and ambient waters—lakes, rivers, and estuaries—as well as of
the gastrointestinal tracts of animals.
12
   The Environmental Protection Agency describes fecal coliforms as bacteria associated with
human or animal wastes.


                                                                                           8
to a registered laboratory 13 for further testing. Test results showed that, in addition to a
pH level of 10.6, the water had levels of suspended solids, dissolved solids, chloride,
fluoride, nitrite, sodium, and potassium that were above the guidelines for drinking
water. 14 (See Appendix IV.) The laboratory stressed that this water should be treated to
reduce the elevated substances to acceptable levels; World Concern indicated that it
would work with the Ministry of Water to do so.




        An overgrown water source near a USAID-funded shallow well in Narok
        indicates possible ground water contamination, according to USAID
        guidance. The well nearby had not been tested. (Photo by RIG/Pretoria,
        March 2010)

The situation described above demonstrates that, in the absence of required water
testing, USAID/Kenya and its implementing partner were providing water of questionable
quality to intended beneficiaries. The mission and World Concern were unaware of the
need for and therefore not implementing appropriate mitigation measures. As a result,
USAID/Kenya faced increased risk of providing and promoting the use of unsafe drinking
water. Given the mission’s objective of improving access to potable water for human
consumption, it is imperative that the water provided through USAID-sponsored activities
be of acceptable quality for drinking. 15

To help ensure that water testing requirements are implemented now and in the future,
the audit makes the following recommendations.



13
   This laboratory was approved by the National Environmental Management Authority of Kenya.
14
   Parameters for pH, dissolved solids, chloride, and fluoride are secondary standards and are not
considered a health risk, according to the Environmental Protection Agency. However,
secondary contaminants present above the suggested acceptable levels cause water to look,
taste, and smell bad and may discourage people from using the water.
15
   The implementing partner and agreement officer’s technical representative stated that all water
sources would be tested as required. All shallow wells visited by the audit team have since been
tested for arsenic, and arsenic levels at all sites have been found acceptable for human
consumption.


                                                                                                9
          Recommendation 3. We recommend that USAID/Kenya immediately
          require, in writing, that implementing partners conduct necessary water
          tests at all completed water points constructed or refurbished for human
          consumption, take any corrective action necessary, and require written
          reports detailing test results and actions taken.

          Recommendation 4. We recommend that USAID/Kenya develop and
          implement a plan to ensure that all implementing partners conduct
          required water tests at all future water points constructed or refurbished
          for human consumption.

Environmental Responsibilities
Not Given High Priority
USAID’s Automated Directives System (ADS) 204 16 states that operating units—that is,
missions—are responsible for providing the staff and resources needed to implement the
mission’s environmental compliance strategies consistent with the Agency’s
environmental procedures. It goes on to state that mission environmental officers must
serve as a member of each team in the operating unit to advise the teams, their activity
managers, and technical representatives on specific needs and approaches to meet 22
CFR 216 requirements, and assist with monitoring compliance of ongoing activities.
Furthermore, USAID best practices for environmental compliance call for mission staff
and implementing partners to be trained in complying with 22 CFR 216, and recommend
that a mission order on environmental compliance be in place.

Contrary to guidance, the audit found that USAID/Kenya had not provided adequate staff
time or resources, including training, needed to implement the mission’s environmental
compliance strategy. Also, the mission did not have a mission order on environmental
compliance, leaving the mission without a single, consolidated statement of
environmental compliance roles and responsibilities.

While USAID/Kenya had designated an experienced mission environmental officer 17 and
deputy mission environmental officer, both individuals had other significant
responsibilities and thus spent only 10–15 percent of their time on environmental
compliance duties.     Partially as a result of these human resource constraints, the
mission had fallen behind on documentation required for environmental compliance, and
the mission environmental officer and deputy did not have time to serve on each
program team or assist mission staff with environmental monitoring.

Although the mission environmental officer has the responsibility to serve all program
teams, most of the environmental compliance responsibilities were funded by
USAID/Kenya’s Natural Resources Management Office. The office’s funding may not be
sufficient for a missionwide program. The mission environmental officer estimated that it
would take one person dedicated full-time to environmental procedures about 6 months
to bring the mission into full compliance. He suggested that compliance then could be
maintained by a part-time mission environmental officer supported by designated
individuals in the technical offices that consistently implement activities with potential for

16
     ADS 204.2.b and ADS 204.3.5.
17
     See Appendix V for a summary of environmental staffing.


                                                                                           10
environmental impact, namely the Agriculture, Business and Environment Office and the
Office of Population and Health.

As for environmental compliance training, the audit noted a gap in training for both
mission staff and implementing partners. At the mission, the Office of Population and
Health conducted environmental compliance training in November 2008 for mission staff
and implementing partners involved in health projects.              However, technical
representatives for three of the six audited programs had never attended environmental
compliance training. Although the mission environmental officer assists and advises,
ADS 204 18 states that assistance objective teams, activity managers, and technical
representatives are responsible for ensuring full compliance with 22 CFR 216.
Nevertheless, in part because of a lack of emphasis on environmental responsibilities
and a lack of training, technical representatives were not always enforcing requirements
for environmental documentation (page 12) and were not conducting environmental site
visits (page 14).

Among implementing partners, staff of four of the six audited programs have attended
training related to USAID’s environmental requirements, as follows: (1) three staff
members on the civil society project attended training in 2004, (2) three staff members
on the maize project attended training in 2009, (3) two staff members on the HIV/AIDS
project attended training in 2008, and (4) the former chief of party for the previous
malaria activity attended training. However, one staff member who attended training
found the material to be extremely confusing and still did not understand his role or
USAID’s expectations regarding procedures for environmental compliance. Moreover,
implementing partners for two audited programs have never attended environmental
compliance training.

Mission staff attributed the gap in environmental compliance training to a lack of training
opportunities. Missionwide training for staff and implementing partners has not been
provided at USAID/Kenya in recent years. One of the regional environmental advisors,
based in Nairobi said that the regional environmental staff had conducted training
sessions in other countries in the region, but the last full training for implementing
partners in Kenya was offered in 2004. He also stated that, although mission staff and
implementing partners can try to attend training offered at other missions in the region, it
is often difficult to find space because training slots fill quickly.

As a result of unfulfilled roles and responsibilities for compliance, USAID/Kenya is at risk
that it will not properly mitigate significant environmental concerns. To minimize this risk,
the audit makes the following recommendations.

          Recommendation 5. We recommend that USAID/Kenya develop a
          mission order on environmental compliance that outlines roles,
          responsibilities, and expectations at the mission.

          Recommendation 6. We recommend that USAID/Kenya develop and
          implement a plan with milestones to increase time and resources
          available to the mission environmental officer function.



18
     ADS 204.2.c.


                                                                                          11
       Recommendation 7. We recommend that USAID/Kenya develop a plan
       with milestones for training mission staff and implementing partners in
       environmental requirements, procedures, and expectations.

Environmental Guidance
Not Implemented Adequately
Environmental procedures, policies, and requirements are outlined in 22 CFR 216 and
codified in ADS 204. Like other USAID missions, USAID/Kenya has adapted Agency
guidance in creating country-specific environmental policies and procedures, reflected in
its initial environmental examinations.

The audit found several instances in which USAID/Kenya had not adequately
implemented existing Agency or mission environmental policies and procedures: (1)
environmental assessment and expertise requirements were omitted from solicitations
and awards, (2) environmental documentation was not completed or updated, and (3)
environmental monitoring was not incorporated into site visits. These areas are
discussed below.

Environmental Assessment and Expertise Requirements Omitted From
Solicitations and Awards – ADS 19 and USAID/Kenya’s initial environmental
examinations require that the environmental requirements outlined in the initial
environmental examination and other related documents be incorporated into all
solicitations and awards. ADS 204 20 further states that assistance objective teams and
activity managers must consider program-relevant environmental findings and
recommendations when designing and approving funding for a program or activity.
Additionally, USAID/Kenya’s initial environmental examinations state that the mission will
ensure that implementing partners have sufficient capacity to complete the
environmental screening process and to implement monitoring and mitigation measures.

Contrary to guidance, USAID/Kenya did not always incorporate initial environmental
examination requirements into solicitations and awards, or include expertise in
environmental compliance as a requirement for partner selection.                Although
environmental compliance language appeared in solicitations for three of the five
programs with solicitations, 21 only two program solicitations directly referenced the
applicable initial environmental examination and specific Agency guidance. Three of the
six programs omitted requirements to comply with USAID’s environmental regulations
from the signed award. Moreover, capacity of the implementing partner to address
environmental requirements was included in the evaluation criteria for only two of the six
programs reviewed, although a third program awarded points for “innovative approaches
and strategies to implement the program including gender, environmental concerns,
farmer training, partnerships, etc.”

USAID/Kenya contracting officers attributed the omission of environmental requirements
to the practice of using existing awards, which may not include all relevant
environmental requirements, as templates for new procurement instruments.

19
   ADS 204.3.4.a.(6) and 303.3.6.3.e.
20
   ADS 204.3.8.
21
   The HIV/AIDS audited program was developed in response to an unsolicited proposal.


                                                                                        12
Additionally, although Agency environmental staff developed a supplement to ADS 204 22
specifically to assist contracting and agreement officers with language on environmental
compliance, the contracting officers interviewed stated that they use only the 300 series
of ADS, and would not think to look in the 200 series for guidance. Moreover, technical
representatives were not aware they needed to verify inclusion of environmental
requirements in procurement instruments before issuance.

Because environmental assessment and expertise requirements were not included in
solicitations and awards, implementing partners were not always aware of environmental
requirements at the inception of the program. As a result, some implementing partners
were not satisfying environmental requirements, such as completion of environmental
screening forms and environmental mitigation and monitoring plans (discussed in the
next section). Implementing partners that were interviewed also noted instances in
which they had inadequately budgeted time, staff, or funds for environmental
requirements. USAID/Kenya may be unable to enforce environmental requirements if
they are not included in signed awards. To ensure that environmental assessment and
expertise requirements are adequately addressed in the future for projects with potential
environmental impact, this audit makes the following recommendation.

        Recommendation 8. For activities with threshold decisions of Negative
        Determination with Conditions and Positive Determination, 23 we
        recommend that USAID/Kenya develop and implement a plan with steps
        to (1) incorporate environmental assessment and monitoring
        requirements into solicitations and signed awards and (2) incorporate
        environmental expertise into the selection criteria for implementing
        partners.

Environmental Documentation Not Completed or Updated – USAID’s environmental
guidance stipulates that specific environmental documentation be completed and
appropriately updated.      Specifically, missions are required to prepare initial
environmental examinations, whereas implementing partners, either individually or in
coordination with the mission, must develop pesticide evaluation reports and safer use
action plans (PERSUAPs), environmental screening forms, and environmental mitigation
and monitoring plans. The audit found that USAID/Kenya had not ensured that these
required documents were completed and maintained.

•    Initial Environmental Examinations. Agency best practices recommend updating
     initial environmental examinations every 5 years or as necessary to incorporate new
     activities. However, USAID/Kenya’s initial environmental examination for the natural
     resources management program had not been updated since it was developed for
     the fiscal year (FY) 2001–5 planning period. Similarly, the initial environmental
     examination for the health program had not been updated to incorporate the
     President’s Malaria Initiative, 24 which commenced in Kenya in FY 2008.

22
   ADS 204, “Environmental Compliance: Language for Use in Solicitations and Awards – An
Additional Help for ADS Chapter 204,” developed by USAID’s Office of Economic Growth and
Trade, revised May 19, 2008.
23
   Threshold decisions assess a project’s potential environmental impact, as described in
Appendix V.
24
   USAID/Kenya implements a significant portfolio under the President’s Malaria Initiative. Total
funding budgeted for the mission’s malaria activities from the start of the initiative in-country in


                                                                                                 13
    Furthermore, at the time of audit fieldwork, the mission had not yet completed
    necessary steps to remove the deferral that had been recommended for a
    component of the malaria program in accordance with 22 CFR 216. 25 According to
    mission guidance, this activity component was not to have proceeded without
    appropriate resolution of the deferral.

•   Pesticide Evaluation Reports and Safer Use Action Plans (PERSUAPs).
    USAID/Kenya’s initial environmental examination for agriculture and business
    programs states that “the ‘legacy’ PERSUAPs in business development services,
    dairy, horticulture, and maize will be reviewed, amended and updated as required,
    within the calendar year 2009.” The guidance further states that, given that the
    PERSUAPs are 5 or more years old, all PERSUAPs need to be revised and likely
    amended. Although the PERSUAP for dairy activities was updated in 2008 through
    the USAID Kenya Dairy Sector Competitiveness Program, the PERSUAPs for three
    other program areas—maize, dated 2003; horticulture, dated 2004; and business
    development services, dated 2003—have not been updated since they were drafted.

•   Environmental Screening Forms.                USAID/Kenya’s initial environmental
    examinations, consistent with Agency guidance, 26 require that implementing partners
    complete an environmental screening form for projects that were not fully developed
    at the time the corresponding initial environmental examination was drafted.
    Screening forms contain specific details, conditions, and mitigation measures for the
    projects. The audit found that not all implementing partners had completed
    environmental screening forms as appropriate. Specifically, environmental screening
    forms for the maize, dairy, and water programs audited were completed or updated
    only following notification of the audit. In contrast, environmental screening forms
    had been completed in a timely manner for the civil society, HIV/AIDS, and malaria
    programs audited.

•   Environmental Mitigation and Monitoring Plans and Reports. USAID/Kenya’s
    initial environmental examinations require implementing partners to complete an
    environmental mitigation and monitoring plan for all activities and incorporate the
    plan into the annual work plan. These plans are important because they detail the
    actions necessary to mitigate potential environmental impact, assign responsibility
    for monitoring, and outline the frequency of environmental reporting. Although some
    environmental mitigation and monitoring plans were developed at the start of their
    respective activities, three problem areas were noted: (1) these documents were not
    completed for all projects with potential for environmental impact, (2) environmental
    mitigation and monitoring plans had not been incorporated into annual work plans,
    and (3) quarterly and annual reports from implementing partners did not consistently
    or clearly report on implementation of environmental mitigation and monitoring plans.
    As a result, environmental conditions were not always monitored by the mission or
    the implementing partner.        Quarterly reports from one implementing partner
    mentioned a “risk of either people or livestock falling into the unprotected wells and
    drawing water from the unprotected, untested water” resulting from a delay in
    procuring construction supplies. Although the implementing partner indicated that


FY 2008 through FY 2010, including FY 2007 jump-start funds, was approximately $85.6 million.
25
   22 CFR 216.3(a)(7)(iii).
26
   22 CFR 216.3 (a)(7)(ii).


                                                                                           14
     some wells were contaminated, 27 the technical representative did not recognize this
     as a potential environmental problem that might require mitigation.

Mission staff and implementing partners agreed that they had not completed and
updated documents because of staffing constraints and competing priorities.
Additionally, some implementing partners were not aware of the requirements to
develop, update, or report on environmental documents. Although other implementing
partners were aware of the reporting requirements, implementation of the requirements
had been overlooked because mission staff had not enforced compliance. USAID/Kenya
may fail to notice environmental impact if required assessments are not completed and
associated documentation not kept up-to-date. To address these issues, this audit
makes the following recommendations.

        Recommendation 9. We recommend that USAID/Kenya update its
        natural resource management initial environmental examination.

        Recommendation 10. We recommend that USAID/Kenya amend its
        initial environmental examination for health to include the President’s
        Malaria Initiative program and to remove the recommended deferral.

        Recommendation 11. We recommend that USAID/Kenya develop and
        implement a plan with steps to ensure that required environmental
        documentation, including initial environmental examinations, pesticide
        evaluation reports and safer use action plans, environmental screening
        forms, and environmental mitigation and monitoring plans, is completed,
        updated, and clearly reported on in quarterly and annual reports, as
        appropriate.

Environmental Monitoring Not Incorporated Into Site Visits – Agency guidance 28
states that mission officials are responsible for ongoing monitoring and evaluation of
activities to ensure they comply with USAID’s environmental regulations and to identify
and address any new or unforeseen environmental consequences arising during
implementation. This guidance also states that adequate resources should be allocated
from the activity’s budget for effective environmental monitoring, and environmental
impacts should be considered to the same extent as other aspects of the project.
Furthermore, USAID/Kenya’s initial environmental examinations require technical
representatives to conduct field visits and consultations with implementing partners to
assess the environmental impact of ongoing activities and the effectiveness of
environmental mitigation and monitoring plans.

Contrary to guidance, the audit found that technical representatives were not looking
specifically at environmental issues during site visits, and subsequently had not
assessed the effectiveness of implementing partners’ environmental mitigation and
monitoring plans. Technical representatives stated that they generally did not know or
remember to observe environmental conditions during site visits, and standard site visit
checklists for activities with an environmental component were not being used. A

27
    An increase in turbidity, or cloudiness of water, was cited as the main contamination issue. To
address the issue, World Concern stated that it trained affected communities to use simple water
filtration methods.
28
    ADS 204.3.4.b, ADS 204.2.c., and 22 CFR 216.3(a)(8).


                                                                                                15
contributory cause was that the environmental mitigation and monitoring plans had not
been incorporated into implementing partners’ annual work plans; several technical
representatives interviewed said they based their site visits on the annual work plans
provided by implementing partners. Lack of time and a heavy workload were cited as
other reasons for inadequate and incomplete site visits by mission staff.

Despite the workload constraints and unfamiliarity with environmental regulations cited
by mission staff, USAID has already invested significant resources to assist operating
units with environmental monitoring. Specifically, ENCAP, 29 a program developed by
the USAID Africa Bureau’s Office of Sustainable Development, provides tools,
resources, technical assistance, and capacity building to USAID’s Africa missions and
implementing partners to strengthen environmental management and compliance.
ENCAP tools and guidance are freely available to mission staff and implementing
partners on the ENCAP Web site. 30 Among the resources offered through ENCAP is a
field guide series for quick, visual identification of serious environmental concerns.
Separate field guides were developed for small-scale water supply, sanitation, and
health-care activities, and were intended for use during field visits by USAID and
implementing partner staff who are not environmental specialists. 31

ENCAP was recognized as an excellent resource by mission environmental staff.
However, those who would benefit most from ENCAP, namely the technical
representatives responsible for environmental monitoring and compliance, were not
aware of ENCAP. The technical representatives, especially those in charge of projects
in the water, agriculture, and health-care program areas, could greatly benefit from
ENCAP’s field guides, environmental guidelines for small-scale activities, and other
resources. That these existing and no-cost tools are not being utilized indicates a waste
of Agency resources.

By not conducting complete site visits and not taking advantage of Agency resources,
technical representatives put USAID/Kenya at risk of overlooking environmental impact.
Had site visits incorporated environmental considerations, some of the issues discussed
in this report, including disposal of health-care waste and water testing, may have been
identified at an earlier stage. To ensure that technical representatives incorporate
environmental monitoring into site visits and draw on Agency resources when needed,
this audit includes the following recommendations.

        Recommendation 12. We recommend that USAID/Kenya develop and
        implement a plan to ensure that agreement and contracting officer’s
        technical representatives incorporate environmental monitoring into site
        visits.


29
   ENCAP stands for Environmentally Sound Design and Management Capacity Building for
Partners and Programs in Africa.
30
   The URL is www.encapafrica.org.
31
   Other ENCAP services include (1) assistance in conducting environmental compliance best
practice reviews, (2) assistance in incorporating responsibilities for environmental compliance into
procurement instruments, (3) design and evaluation of environmental mitigation and monitoring
plans, and (4) development and review of documentation showing compliance with 22 CFR 216,
including initial environmental examinations and pesticide reports. These services are available to
missions both on a subsidized basis through a cost-share or in-kind contribution, or independently
through a task order buy-in or a direct contract.


                                                                                                 16
Recommendation 13. We recommend that USAID/Kenya notify mission
personnel and implementing partners in writing about the free resources
to aid environmental monitoring that are available on the Environmentally
Sound Design and Management Capacity Building for Partners and
Programs in Africa Web site.




                                                                            17
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID/Kenya agreed with all the recommendations
and provided support for actions taken to address the recommendations. Management
decisions have been reached on Recommendations 1–7 and 9–13, and final action has
been taken on Recommendation 10. The mission’s comments are included in their
entirety in Appendix II (without attachments), and our evaluation of those comments is
summarized below.

For Recommendation 1, the mission agreed to determine the extent of its responsibilities
in relation to health-care waste generated by its HIV/AIDS service providers. The
mission stated that it is working with USAID, Kenyan, and other U.S. Government
officials to determine the roles and responsibilities of each partner and the extent of
USAID’s responsibility. In addition, the mission noted that the initial environmental
examination for the Office of Population and Health will be updated as necessary to
emphasize the extent of USAID’s responsibilities. The mission set a target date of
August 30, 2011. Accordingly, a management decision has been reached on this
recommendation.

For Recommendation 2, the mission agreed to develop a plan with milestones to
implement its responsibilities in relation to health-care waste generated by its HIV/AIDS
service providers. Specifically, USAID/Kenya agreed to develop a plan that: (1) ensures
safe management of medical waste generated by activities that are directly under the
control of USAID implementing partners, (2) promotes the safe management of medical
waste that is generated by activities to which USAID is contributing, but which are not
directly under USAID's control, and (3) monitors and evaluates the state of medical
waste management within the geographic scope of the USAID intervention, providing
actionable information appropriate to the management relationship of USAID to the
medical-waste-generating activity. The mission set a target date of August 30, 2011, for
completing the plan. Accordingly, a management decision has been reached on this
recommendation.

For Recommendation 3, the mission agreed to immediately require, in writing, that
implementing partners conduct necessary water tests at all completed water points
constructed or refurbished for human consumption, take any corrective actions
necessary, and require written reports detailing test results and the actions taken. On
August 17, 2010, USAID/Kenya sent an e-mail to implementing partners reminding them
to conduct necessary water tests. According to the mission, all implementing partners
have completed chemical and bacteria water tests, and half of the implementing partners
have completed arsenic tests. The mission set a target date of December 2010 for
completing water tests. Of the 15 water test results attached to the mission’s comments,
only 2 tests indicated that the water was suitable for domestic use. Results of the other
13 water tests, which were conducted at various water points, stated that the water
required treatment before it would be suitable for such use. Specifically, the water tests
noted that the water was highly mineralized, contained high amounts of iron and fluoride.
In a subsequent communication, USAID/Kenya described mitigation procedures to



                                                                                       18
address water points that were found to have high mineral content, high fluoride content,
or the presence of hard water. In addition, the implementing partners have sent samples
for retesting at other laboratories to confirm the results. According to the mission, the
sites are to remain closed pending satisfactory results. USAID/Kenya also noted that
implementing partners would undertake periodic testing on qualified sites because
ongoing testing is the only way to determine whether the water supply is or has been
contaminated. USAID/Kenya stated that if the water is found to be unfit for human
consumption, water avoidance advisories will be applied. The mission set a target date
of December 15, 2010, to complete retesting of water sites and compile comprehensive
reports for the water sites. Accordingly, a management decision has been reached on
this recommendation.

For Recommendation 4, the mission agreed to develop and implement a plan to ensure
that all implementing partners conduct required water tests at all future water points
constructed or refurbished for human consumption. USAID/Kenya stated its staff had
developed a water quality assurance plan that describes monitoring criteria, frequency,
and measures for ensuring the safe provision of water to recipients. USAID/Kenya
provided a template of the water quality assurance plan, which is going through internal
review and should be cleared for dissemination and use by January 2011. Accordingly,
a management decision has been reached on this recommendation.

For Recommendation 5, the mission agreed to develop a mission order on
environmental compliance that outlines roles, responsibilities, and expectations at the
mission. USAID/Kenya has begun drafting that mission order, for issuance by
December 31, 2010. Accordingly, a management decision has been reached on this
recommendation.

For Recommendation 6, the mission agreed to develop and implement a plan with
milestones to increase time and resources available to the mission environmental officer
function. Specifically, the mission has assigned additional staff to assist with this role.
In addition, technical officers will review their work objectives to ensure that monitoring
environmental compliance is incorporated into their annual performance objectives by
October 29, 2010. Finally, the mission noted that technical representatives will be
required to incorporate environmental compliance monitoring objectives in their regular
project visits. A mission order on environmental compliance that will be issued by
December 31, 2010, will reinforce the environmental compliance process. Accordingly,
a management decision has been reached on this recommendation.

For Recommendation 7, the mission agreed to develop a plan with milestones for
training mission staff and implementing partners in environmental requirements,
procedures, and expectations.     USAID/Kenya plans to organize training on
environmental requirements, procedures, and expectations in Nairobi on or about
January 31, 2011. Accordingly, a management decision has been reached on this
recommendation.

For Recommendation 8, the mission agreed that, for activities with threshold decisions of
Negative Determination with Conditions and Positive Determination, it would implement
a plan with steps to incorporate environmental assessment and monitoring requirements
into solicitations and signed awards. Specifically, USAID/Kenya stated it had begun
drafting a mission order to ensure that each environmental compliance document will be
accompanied by an environmental mitigation and monitoring plan template. Additionally,


                                                                                        19
the mission will incorporate environmental compliance language in every new agreement
and contract and amend existing ones to ensure that partners are committed to
implementing the initial environmental examination conditions. However, the comments
did not detail how the mission would comply with the second part of the
recommendation, to incorporate environmental expertise into award selection criteria.
As a result, a management decision has not been reached on this recommendation.

For Recommendation 9, the mission agreed to update its natural resource management
initial environmental examination.   The mission stated that a natural resource
management initial environmental examination will be completed by November 30, 2010.
Accordingly, a management decision has been reached on this recommendation.

For Recommendation 10, the mission has amended its initial environmental examination
to remove the deferral for integrated vector management.                   In subsequent
communication, USAID/Kenya noted that with the removal of the deferral, the initial
environmental examination for health includes the breadth of activities for the President’s
Malaria Initiative. Based on the mission’s comments and the supporting documentation
provided, a management decision has been reached, and final action has been taken on
this recommendation.

For Recommendation 11, the mission agreed to develop and implement a plan with
steps to ensure that required environmental documentation is completed, updated, and
clearly reported on in quarterly and annual reports, as appropriate. Specifically, the
mission is drafting a mission order, to be issued by December 31, 2010, that will require
agreement officer’s technical representatives and contracting officer’s technical
representatives (technical representatives) to incorporate environmental compliance
monitoring objectives in their regular project visits and use a monitoring template for
reporting.    Accordingly, a management decision has been reached on this
recommendation.

For Recommendation 12, the mission agreed to develop and implement a plan to ensure
that technical representatives incorporate environmental monitoring into site visits.
Specifically the mission will train technical representatives to implement their
responsibilities with regard to environmental monitoring during site visits. The training is
to be held on or about January 30, 2011. Additionally, USAID/Kenya stated that the
environmental mitigation and monitoring plan for monitoring visits will be prepared or
updated by November 30, 2010. Accordingly, a management decision has been
reached on this recommendation.

For Recommendation 13, the mission agreed to notify mission personnel and
implementing partners in writing about the free resources to aid environmental
monitoring, available on the Environmentally Sound Design and Management Capacity
Building for Partners and Programs in Africa (ENCAP) Web site. USAID/Kenya has
drafted a memorandum to technical representatives and implementing partners to inform
them of the ENCAP resources. In addition, information on and links to resources from
the ENCAP Web site will be provided in a mission order to be issued by December 31,
2010. Accordingly, a management decision has been reached on this recommendation.




                                                                                         20
                                                                              APPENDIX I



SCOPE AND METHODOLOGY
Scope
RIG/Pretoria conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objectives. We believe that the
evidence obtained provides that reasonable basis.

The objective of this audit was to determine whether USAID/Kenya is achieving its goal
to mitigate environmental impact in its project portfolio. Audit fieldwork was conducted at
USAID/Kenya from March 9 to March 26, 2010, and continued at USAID/Pretoria until
the exit conference on April 14, 2010. The audit covered the period October 1, 2008, to
March 31, 2010; however, we considered it appropriate to incorporate information
pertaining to original contracts and original environmental documentation for some
projects that began before the period under audit.

In planning and performing the audit, we assessed USAID/Kenya’s internal controls
regarding its efforts to mitigate environmental impact. Specifically, we obtained an
understanding of and evaluated (1) environmental documentation, including initial
environmental examinations, pesticide evaluation report and safer use action plans,
environmental screening forms and review reports, and environmental mitigation and
monitoring plans; (2) contract and agreement documents; (3) program documents, such
as work plans and quarterly reports; (4) best management practices; and (5) the
monitoring of and interaction with implementing partners by agreement and contracting
officer’s technical representatives. We interviewed key USAID/Kenya environmental
staff, USAID/Kenya mission personnel, and implementing partners. We completed
fieldwork at USAID/Kenya in Nairobi and visited several project sites in surrounding
areas, including sites in or around the cities of Narok, Eldoret, Naivasha, Nanyuki, and
Lamu.

The audit team focused primarily on five projects to answer the audit objective. A sixth
project was included for document review and interviews only. The total amounts
awarded and obligated for the six projects reviewed were approximately $104,162,369
and $69,512,563, respectively, as of March 31, 2010 (Appendix III).

Methodology
To answer our audit objective, we first completed a desk review of USAID/Kenya’s
project portfolio. We judgmentally selected five activities from the portfolio to narrow the
focus of the audit. These activities were selected based on (1) start and end dates, (2)
funding levels, and (3) estimated inherent risk of environmental impact. These five
activities represent the mission’s diverse project portfolio and capture consideration of
environmental concerns in a variety of program areas, including water, agriculture, and
health. Because we judgmentally selected activities, results of the sample tested cannot
be projected to the population.




                                                                                         21
                                                                                APPENDIX I


An additional project focused on malaria was also incorporated into the audit, though to
a lesser extent. USAID/Kenya was in the midst of the procurement process for a new
indoor residual spraying program, and there were no current spraying activities at the
time of the audit. However, we determined that, as a program with significant potential
for environmental impact, this component should be included in the scope of the audit.
We reviewed environmental documentation for the activity and interviewed mission staff
and the implementing partner, but conducted no site visits.

We reviewed applicable laws, best practices, and guidelines pertaining to
USAID/Kenya’s environmental regulations, specifically Title 22 of the Code of Federal
Regulations, Part 216—Environmental Procedures (22 CFR 216) and Automated
Directives System 204 to identify criteria for the audit.         Initial environmental
examinations, the fundamental environmental documents required by 22 CFR 216 for all
USAID-funded projects, were also used to obtain project-specific criteria and conditions
for implementation.

At USAID/Kenya, we met with key mission environmental personnel and agreement and
contracting officer’s technical representatives for the projects selected. We interviewed
mission staff to assess the mission’s processes, knowledge, and awareness for
mitigating environmental impact.          We reviewed documentation provided by
USAID/Kenya, such as contract and agreement documents, environmental
documentation, and work plans, to determine to what extent environmental procedures
and environmental best practices were being implemented. Testimonial evidence was
evaluated in conjunction with other interviews, available documentation, and site visits.

We conducted additional interviews with implementing partners at the partners’ central
offices in Nairobi and in the field. We assessed implementing partners’ capacity,
knowledge, and awareness of USAID’s environmental procedures through interviews
and document review. Through interviews with officials of these organizations and by
reviewing work plans, quarterly reports, and other project documents, we also
determined the implementing partners’ ability to monitor environmental impact, as well
as the level of monitoring of implementing partners provided by agreement and
contracting officer’s technical representatives and USAID environmental staff.

The audit team visited multiple activity sites for each of the projects included in this
review. The audit team used the field guides developed by the Africa Bureau’s
Environmentally Sound Design and Management Capacity Building for Partners and
Programs in Africa (ENCAP) 32 program to visually assess impact at health-care facilities
and water project sites. In addition to conducting visual inspections, the audit team
observed water quality tests at shallow well sites, and soil pH tests at some sites visited
for the maize program. In addition, water tests were conducted at sites not visited during
the audit.




32
    ENCAP, a program developed by the USAID Africa Bureau’s Office of Sustainable
Development, provides tools, resources, technical assistance, and capacity building to USAID’s
Africa missions and implementing partners to strengthen environmental management and
environmental compliance.


                                                                                           22
                                                                        APPENDIX II



MANAGEMENT COMMENTS



Date:         September 3, 2010

To:           Likza Iglesias, Acting Regional Inspector General/Pretoria

From:         Erna Kerst, USAID/Kenya Mission Director /s/

Subject:      Audit of USAID/Kenya's Efforts to Mitigate Environmental
              Impact in its Project Portfolio (Report No. 4-615-10-00X-P)

This memorandum transmits USAID/Kenya's management responses for the 13
recommendations resulting from the subject audit performed by your staff from
March 9-26, 2010 (report No. 4-615-10-00X-P) at USAID/Kenya and continued at
USAID/RIG Pretoria until April 14, 2010.

The Mission appreciates the overall finding that: “USAID/Kenya is generally
achieving its goal to mitigate environmental impact in its project portfolio” (pg 1),
including the specific findings that:
       • “... environmentally sound design and management of USAID/Kenya's
       activities, adherence to the Government of Kenya's environmental
       regulations and requirements and implementing partners' awareness of
       good environmental practices all contributed to impact mitigation" (pg 2);
       and
       • “... the audit found no evidence of adverse impact to the environment
       resulting from USAID/Kenya's activities, and in some cases found that
       USAID/Kenya's activities had benefited the environment." (pg 4)

This memorandum: (1) describes a plan of action to strengthen environmental
impact mitigation; and (2) identifies corrective actions the Mission has already
taken to address some of the recommendations.




                                                                                  23
                                                                      APPENDIX II


Recommendation 1: We recommend that USAID/Kenya determine the extent of
its responsibilities in relation to health-care waste generated by its HIV/AIDS
service providers.

Management Response: USAID/Kenya agrees with this recommendation. The
Mission has consulted with the Bureau Environmental Officer and is working with
the Kenya Ministry of Health’s technical working group on waste management
and the Centers for Disease Control and Prevention (CDC) to determine the
roles and responsibilities for each partner and the extent of USAID’s
responsibility. To the extent necessary, the Initial Environmental Examination
(IEE) for the Office of Population and Health (OPH) will be updated to emphasize
the extent of USAID’s responsibilities by August 30, 2011.

Recommendation 2: We recommend that USAID/Kenya develop a plan with
milestones to implement its responsibilities in relation to health-care waste
generated by its HIV/AIDS service providers, including the revision of all relevant
program documents and agreements.

Management Response: USAID/Kenya agrees with this recommendation. The
OPH IEE outlines specific conditions, procedures and responsibilities for
generation, storage and disposal of health-care waste by USAID-supported
HIV/AIDS service providers. The same IEE specifies requirements for including
these conditions in solicitations and awards in compliance with ADS 204. It also
requires USAID partners to complete environmental screening forms (ESFs),
environmental review reports (ERRs), environmental mitigation and monitoring
plans (EMMPs), and comply with applicable Government of Kenya (GoK)
environmental laws and site visit recommendations made by USAID staff.

The IEE will be updated to clarify the extent of the Mission's responsibility for
assuring or promoting sound medical waste management under different
scenarios of USAID control over the waste-generating activities. USAID/Kenya
OPH will also develop a plan with milestones that:
i) Ensures safe management of medical waste generated by activities that are
     directly under the control of USAID implementing partners;
ii) Promotes the safe management of medical waste that is generated by
     activities to which USAID is contributing, but which are not directly under
     USAID's control; and
iii) Monitors and evaluates the state of medical waste management within the
     geographic scope of the USAID intervention, providing actionable information
     appropriate to the management relationship of USAID to the medical waste
     generating activity.

The IEE update and the plan will be completed by August 30, 2011. Award
agreements will be modified as necessary.




                                                                                24
                                                                       APPENDIX II


Recommendation 3: We recommend that USAID/Kenya immediately require, in
writing, that implementing partners conduct necessary water tests at all
completed water points constructed or refurbished for human consumption, take
any corrective action necessary, and require written reports detailing test results
and the actions taken.

Management Response: USAID/Kenya agrees with this recommendation. All
implementing partners supporting construction or refurbishment of water supplies
for human consumption have been reminded in writing (Attachment 1) to
conduct the necessary water tests for all completed water points per Reg. 216
requirements. These requirements are outlined in Section 4.1.4 of the Economic
Growth IEE, section 5 of the EMMP and also in all award documents for water
activities. (Refer to “Recommendation 4” below for more information.)

To date, all implementing partners have completed chemical and bacteria tests
for all completed water points per Reg. 216 requirements (Attachment 2).
Previously, implementing partners have had limited capacity to undertake arsenic
testing in Kenya. However, there are a number of laboratories that can now
process the arsenic tests. Presently, 50% of implementing partners have
completed arsenic water tests with negative results for all tested sites. Copies of
reports of the tests are attached (Attachment 3). The Mission will follow-up on
submission of the test reports by the remaining partners as soon the
infrastructure gets completed but before commencing use of the water. All
partners are expected to have completed the tests by December 2010.

Recommendation 4: We recommend that USAID/Kenya develop and implement
a plan to ensure that all implementing partners conduct required water tests at all
future water points constructed or refurbished for human consumption.

Management Response: USAID/Kenya agrees with this recommendation.
USAID/Kenya has developed a Water Quality Assurance Plan that describes
monitoring criteria, frequency, and measures for ensuring the safe provision of
water to recipients. The plan includes WHO and GoK water quality standards and
monitoring requirements, measures to ensure partners continue to meet the
above water quality standards and criteria. The other components include:
    1. Frequency of testing and monitoring;
    2. Responsible parties for testing and monitoring;
    3. Location of laboratory to be used;
    4. Measures for host country and USAID reporting;
    5. Measures to correct any water quality issue that is found out of
         compliance; and
    6. Notification measures (to USAID, host-country, and school/community)
         that will be taken if the water quality at a borehole is found to be out of
         compliance.




                                                                                 25
                                                                         APPENDIX II


The Water Quality Assurance Plan also includes an equipment inspection and
maintenance plan that consists of equipment maintenance requirements and
schedule, responsible parties and reporting requirements. The plan has a
summary of standard recommendations that should be followed to minimize
potential impacts of inadequate water quality.

Recommendation 5: We recommend that USAID/Kenya develop a mission
order on environmental compliance that outlines roles, responsibilities, and
expectations at the mission.

Management Response: USAID/Kenya agrees with this recommendation. The
Mission has started drafting the Mission Order, which will be issued by December
31, 2010.

Recommendation 6: We recommend that USAID/Kenya develop and implement
a plan with milestones to increase time and resources available to the mission
environmental officer function.

Management Response: USAID/Kenya agrees with this recommendation. To
ensure compliance with environmental regulations, the Mission has assigned four
program-funded technical staff in the Economic Growth program to assist with
this role. A letter appointing a Deputy Mission Environment Officer is attached
(Attachment 4). Under the direction of the Mission Environmental Officer (MEO),
the technical officers will review their individual work objectives to ensure that the
environmental compliance monitoring element is adequately incorporated into
their annual performance objectives by October 29, 2010. These officers will be
assisted by the Regional Environmental Officer (REO) and the Regional
Environmental Procedures and Policy Specialist in USAID/East Africa. In
addition, the respective AOTRs and COTRs for each project will provide closer
and more regular monitoring to ensure adequate compliance. Mission AOTRs
and COTRs will be required to incorporate environmental compliance monitoring
objectives in their regular project visits. They will be provided with and required to
sign an EMMP template with a checklist of environmental issues relevant to the
specific program as part of regular reporting. This process will be reinforced in a
Mission Order on Environmental Compliance which will be issued by December
31, 2010.

Recommendation 7: We recommend that USAID/Kenya develop a plan with
milestones for training mission staff and implementing partners in environmental
requirements, procedures, and expectations.

Management Response: USAID/Kenya agrees with this recommendation. The
USAID/Kenya MEOs and the REO plan to organize training on environmental
requirements, procedures, and expectations to be held in Nairobi on or about Jan
30, 2011 for all AOTRs, COTRs and implementing partners. Environmental
compliance briefings will also be emphasized in all post-award meetings and in



                                                                                   26
                                                                      APPENDIX II


the future trainings will be held for new implementing partner and Mission staff at
least once every two years, as appropriate.

Recommendation 8: For activities with threshold decisions of Negative
Determination with Conditions and Positive Determination, we recommend that
USAID/Kenya develop and implement a plan with steps to incorporate
environmental assessment and monitoring requirements into solicitations and
signed awards and environmental expertise in the selection criteria for
implementing partners.

Management Response: USAID/Kenya agrees with this recommendation. The
Mission has started drafting the Mission Order, which will be issued by December
31, 2010. The Mission will ensure that each environmental compliance document
(i.e., IEEs, ESFs and EAs) will be accompanied by an EMMP template
developed by the Mission that includes:
      • A screening page (environmental verification form) summarizing the
        conditions of a particular IEE where the implementing partner will check
        against the applicable conditions;
      • A mitigation plan that shows how the implementing partner will mitigate
        against the identified potential negative impact as per IEE condition;
      • A monitoring plan that shows how mitigation measures will be monitored
        and by whom and,
      • A signature page for the implementing partner and the Mission.

The Mission will incorporate Environmental Compliance Language (ECL) in every
new agreement and contract and amend existing ones to ensure that partners
are committed to implementing the IEE conditions. The implementing partners
will be required to report back every quarter using the EMMP.

Recommendation 9: We recommend that USAID/Kenya update its natural
resource management initial environmental examination.

Management Response: USAID/Kenya agrees with this recommendation. An
update of the USAID/Kenya natural resource management initial environmental
examination will be completed by November 30, 2010.

Recommendation 10: We recommend that USAID/Kenya amend its initial
environmental examination for health to include the President’s Malaria Initiative
program and to remove the deferral for integrated vector management.

Management Response: USAID/Kenya agrees with this recommendation. An
amendment of the USAID/Kenya OPH IEE has been completed and approved by
the Mission and the Bureau Environmental Officer (approval dated 04/29/2010).
The amendment includes the President's Malaria Initiative program and the
indoor residual spraying component. It also removes the deferral for integrated
vector management. A copy is attached to this Memorandum (Attachment 5).


                                                                                27
                                                                       APPENDIX II



Recommendation 11: We recommend that USAID/Kenya develop and
implement a plan with steps to ensure that required environmental
documentation, including initial environmental examinations, pesticide evaluation
reports and safer use action plans, environmental screening forms, and
environmental mitigation and monitoring plans, is completed, updated, and
clearly reported on in quarterly and annual reports, as appropriate.

Management Response: USAID/Kenya agrees with this recommendation. The
Mission is drafting a Mission Order, which will be issued by December 31, 2010.
Through the application of the Mission Order, EMMPs for each program and the
use of Environmental Compliance Language (ECL) in all the instruments, the
Mission will require AOTRs and COTRs to incorporate environmental compliance
monitoring objectives in their regular project visits. To achieve this, they will be
required to sign on the EMMP template as part of regular reporting. The EMMP
will have a checklist of environmental issues relevant to a particular program.

Recommendation 12: We recommend that USAID/Kenya develop and
implement a plan to ensure that agreement and contracting officer's technical
representatives incorporate environmental monitoring into site visits.

Management Response: USAID/Kenya agrees with this recommendation. All
USAID/Kenya IEEs require AOTRs and COTRs to "undertake field visits and
consultations with implementing partners to jointly assess the environmental
impacts of ongoing activities, and the effectiveness of associated mitigation and
monitoring plans.” The Mission will ensure that AOTRs and COTRs are
adequately trained to implement their responsibilities with regard to
environmental monitoring during site visits. The training is scheduled to be held
on or about Jan 30, 2011 as indicated in Recommendation 7 above.

The respective EMMPs for monitoring visits will be prepared and/or updated by
November 30, 2010.

Recommendation 13: We recommend that USAID/Kenya notify mission
personnel and implementing partners in writing about the free resources to aid
environmental monitoring that are available on the Environmentally Sound
Design and Management Capacity Building for Partners and Programs in Africa
Web site.

Management Response: USAID/Kenya agrees with this recommendation. All
USAID/Kenya IEEs provide references to the free resources available on the
Environmentally Sound Design and Management Capacity Building for Partners
and Programs in Africa (ENCAP) website. These resources are discussed and
referenced in post-award meetings. The resources will be shared with partners
during the review of environmental assessment and mitigation reports as well as
environmental compliance training.



                                                                                 28
                                                                    APPENDIX II



To reinforce the awareness of these resources, the Mission shall notify staff and
implementing partners about the ENCAP website (Attachment 6). Information on
and links to resources from the ENCAP website will also be provided in various
sections of USAID/Kenya’s impending Environmental Compliance Mission Order
which will be issued by December 31, 2010. The Mission Environment Officer
(MEO), through AOTRs and COTRs will communicate to Chief of Parties (COP)
of each program about the resources available to aid environmental compliance.




                                                                              29
                                                                                            APPENDIX III


                     Funding Levels for Programs Reviewed
                                       (as of March 31, 2010)

                             Implementing               Amount Awarded              Obligated Amount
 Program Name                   Partner
                                                                  ($)                          ($)
                          Type of Implementing
                               Instrument

Kenya Maize                    ACDI/VOCA
Development                                                      11,274,845                   11,274,845
Program                   Cooperative Agreement


Kenyan Civil
Society                             Pact
Strengthening
                                                                   7,865,225                    5,765,225
                              Associate Award
Program

Kenya Water and              World Concern
Sanitation                                                         2,499,806                    1,200,000
Program                   Cooperative Agreement


Kenya Dairy
Sector                        Land O’Lakes
Competitiveness
                                                                   9,000,000                    5,000,000
                                  Contract
Program

USAID-AMPATH               Indiana University
Partnership
                                                                 65,000,000                   37,750,000
                          Cooperative Agreement

Indoor Residual             RTI International
Spraying                                                           8,522,493                    8,522,493
(Malaria)*                        Contract


Total                                                           104,162,369                   69,512,563

* No site visits were conducted for the malaria indoor residual spraying activity. The follow-on program was
undergoing competitive bidding at the time of audit planning and has only recently been reawarded to RTI.
This funding reflects the contract that terminated at the end of calendar year 2009, prior to the audit.




                                                                                                          30
                                                                                     APPENDIX IV


                     Selected Water Quality Test Results
                    From a USAID-Sponsored Shallow Well

                                     Acceptable
    Test            Results                                            Significance
                                      Levels*

                                                      World Health Organization (WHO) guidelines
                                     6.5 – 8.5 pH     state that, although pH generally has no direct
     pH          10.62 pH units
                                         units        effect on consumers, levels greater than 9.2
                                                      markedly affect the potability of water.

Suspended       8.0 milligrams per
                                           Nil        8.0 mg/l above the acceptable level of zero.
  Solids            liter (mg/l)

                                                      Over 3.7 times the maximum recommended
    Total                                             level. WHO guidelines state that water
                                       1,000 mg/l
 Dissolved         3,735 mg/l                         becomes significantly and increasingly
                                       maximum
Solids (TDS)                                          unpalatable at TDS levels greater than
                                                      1,000 mg/l.

                                                      Over 8 times the recommended level. WHO
                                                      guidelines state that levels greater than
  Chloride         2,046 mg/l           250 mg/l      600 mg/l would markedly affect the potability
                                                      of water, and a detectable taste arises at
                                                      levels greater than 250 mg/l.

                                                      Almost 3 times the recommended level. WHO
                                                      guidelines state that concentrations above 1.5
                                                      mg/l carry an increasing risk of dental
  Fluoride          4.16 mg/l           1.5 mg/l      fluorosis. Environmental Protection Agency
                                                      (EPA) standards add that ingesting water with
                                                      fluoride levels above 4.0 mg/l can cause bone
                                                      disease.

                                                      Over 44 times WHO’s recommended level for
                                        3.0 mg/l      long-term exposure. EPA guidance states
                                      (short-term     that infants under the age of 6 months who
                                       exposure)      drink water containing nitrite in excess of the
   Nitrite          8.87 mg/l
                                         0.2 mg/l     maximum recommended level† could become
                                       (long-term     seriously ill and, if untreated, may die.
                                       exposure)      Symptoms include shortness of breath and
                                                      blue-baby syndrome.

                                                      Over 6 times the recommended level. WHO
                                                      guidelines state that sodium concentrations in
  Sodium           1,262 mg/l           200 mg/l
                                                      excess of 200 mg/l may give rise to
                                                      unacceptable taste.

 Potassium          82.6 mg/l           50 mg/l       1.65 times the recommended level.
* Levels are as specified by WHO and EPA, except for suspended solids and potassium (for which neither
WHO nor EPA has guidance); for them, maximum levels are those accepted by the lab that did the tests.
† Maximum recommended level of nitrite according to EPA is 1 mg/l; 3.0 mg/l and 0.2 mg/l are WHO
standards.




                                                                                                   31
                                                                                APPENDIX V


         Summary of USAID/Kenya’s Environmental Staffing
                        and Procedures
Environmental Staffing
                    •The assistance objective team leader, technical representatives, and
Mission Staff        activity managers share the primary responsibility for meeting
                     environmental requirements and monitoring activities.
                  • Appointed by the mission director.
Mission
                  • Assists and advises mission staff and implementing partners in
Environmental
                     preparing analyses for new activities and monitoring compliance on
Officer
                     ongoing activities in accordance with 22 CFR 216.
                  • Typically based in selected missions and supports all field offices in the
Regional
                     geographic region.
Environmental
                  • Provides supplementary professional support, training, and regional
Advisors
                     coordination on 22 CFR 216 matters to mission staff.
                  • Based in Washington, DC, oversees and monitors compliance with 22
Bureau               CFR 216 across all operating units in the bureau.
Environmental     • Approves all analyses and documentation required by 22 CFR 216 and
Officer              ensures that all personnel in their bureaus are aware of and trained in
                     22 CFR 216 procedures.
Environmental Procedures
                  • The first step of the environmental assessment process.
                  • Developed by USAID/Kenya for each assistance objective.
Initial
                  • Evaluates the potential environmental impact of program activities and
Environmental
                     establishes mitigation actions, including monitoring and evaluation
Examination
                     required throughout the project lifecycle.
                  • Determines the threshold decision.
                  • Formal Agency judgment that determines whether a proposed action
                     will significantly affect the environment. The five types of threshold
                     decisions are:
                     o Categorical Exclusion (no risk of environmental impact)
Threshold
                     o Negative Determination without Conditions (no impact)
Decision
                     o Negative Determination with Conditions (some risk of
                          environmental impact)
                     o Positive Determination (significant risk of environmental impact)
                     o Deferral (activity is not developed enough to make a determination)
Environmental     • Prepared by implementing partners to detail criteria, staff responsibility,
Mitigation and       and monitoring and reporting timeline for planned mitigation measures.
Monitoring Plan   • To be incorporated into annual work plans.
                  • Completed by implementing partners to account for specific details,
Environmental        conditions, and mitigation measures for projects that were not fully
Screening Form       developed at the time the corresponding initial environmental
                     examination was drafted.
Pesticide         • Developed by implementing partners in coordination with the mission to
Evaluation           detail the 12 information points outlined in 22 CFR 216.3 and put the
Report and Safer     conclusions into a plan of action, including assignment of responsibility
Use Action Plan      to appropriate parties connected with the pesticide program.




                                                                                            32
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
